TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Report on the Audit of Adequacy and
                       Compliance of Disclosure Statement
                      Revision 15, Effective January 1, 2005



                                         September 2005

                             Reference Number: 2005-1C-176




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 29, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                           Daniel R. Devlin
                                 Assistant Inspector General for Audit (Headquarters Operations
                                 and Exempt Organizations Programs)

 SUBJECT:                        Report on the Audit of Adequacy and Compliance of Disclosure
                                 Statement Revision 15, Effective January 1, 2005
                                 (Audit # 20051C0242)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s revised disclosure
 statement revision 15, effective January 1, 2005, to determine whether the revision adequately
 describes the cost accounting practices the contractor proposes to use in performing Federal
 Government contracts and whether the revised practices comply with applicable Cost
 Accounting Standards and Federal Acquisition Regulation1 Part 31. The DCAA also evaluated
 the consistency of the revised cost accounting practices with actual practices.
 According to the DCAA, the subject revision adequately describes the contractor’s revised cost
 accounting practices. However, during the examination, the DCAA identified certain of the
 contractor’s disclosed practices that the DCAA believes are in noncompliance with Cost
 Accounting Standard 409, Depreciation of Tangible Capital Assets. The areas of noncompliance
 cited in the report are:
            •   No policies and procedures for determining residual value.
            •   No useful life study and physical inventory on tangible capital assets.


 1
     48 C.F.R. pt 1-53 (2002).
                Report on the Audit of Adequacy and Compliance of Disclosure
                      Statement Revision 15, Effective January 1, 2005



       •   Failure to credit gains for disposition of tangible capital assets to appropriate expense
           pool.
The DCAA stated the contractor recently submitted a proposal to the Contracting Officer
claiming that the noncompliances cited by the DCAA have no significant impact to the Federal
Government. The DCAA is currently assessing this claim separately from this report.
The DCAA considers the contractor’s accounting system to be generally acceptable for
accumulating, reporting, and billing costs on Federal Government contracts.
The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
